Supreme Court, U.S.
FILED
Sr

NOV

APR 3 0 2021)

0-5832

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

DAMON GRAHAM,
Petitioner,
•

i

-v-v
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

'"1

PETITION FOR WRIT OF CERTIORARI

Damon Graham
#13787-014
FCI Ray Brook
Post Office Box_ 900
Ray Brook, New Yjork
12977

v

E

RECEIVED
i

MAY - 7 2020
©FFICE OF THE CLERK
SUPREME COURT, u.s.

QUESTIONS PRESENTED
1) Whether the United States Court of Appeals for
the First Circuit abused it's discretion by
improperly denying Petitioner a certificate of
appealability on the conclusion that Petitioner
has failed to make a substantial showing of the
denial of a constitutional right?
2) Whether law enforcement committed an unconstitutional
search with a K-9 on a secured storage facility unit
before procuring a search warrant and violating
Petitioner's expectation of privacy when executing
the warrantless search by a K-9?
3) Whether the word "or" in the text of Connecticut
General Statute § 21a-277(a) makes the statute
disjunctive and automatically subject to the
modified categorical approach?
4) Whether Conspiracy, requiring an overt act or not,
could be used as a predicate for enhancement
purposes when applying the categorical approach and
does the United States Sentencing Commission possess
the power, to add the crime of 'Conspiracy' through
commentary?

__

i

PARTIES INVOLVED

All parties appear in the caption of the case on the cover page.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

PARTIES INVOLVED

II

TAJBLE OF CONTENTS

iii, iv

INDEX TO APPENDICES

v

TABLE OF AUTHORITIES

vi, vii, viii, ix

PETITION FOR WRIT OF CERTORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2, 3, 4

STATEMENT OF THE CASE ....................................................

5

REASONS FOR GRANTING THE WRIT.................................. .

6

I.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right by Ineffective Assistance of
Counsel for failing to investigate and file a Meritorious
Suppression Motion ............................ ..............................................

7

(a) Meritorious Motion to Suppress .......................................

7

(b) Ineffective Assistance of Counsel ...................................... 12
II.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right to Due Process of Law because
Connecticut General Statute § 21a-277(a) for Sale of
Hallucinogen/Narcotic is overly broad and Indivisible
which disqualifies the use as a predicate for the career
offender enhancement . . .......... ’. .

16

(a) Indivisible and Conjunctive statute

16

(b) The district court thought the Connecticut statute
to be disjunctive and applied the modified categorical
approach because the text of the statute embodies
the word 'or' ......................................
19
(c) This Court has addressed and rejected the exact issue
of the word "or" making a statute disjunctive from
the Eighth Circuit Court of Appeals........ ......................... 21
'(d) Sale is defined broadly in Connecticut

iii

23

III.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right Because 21 U.S.C. § 851 Invites
Arbitrary Enforcement In Violation of Due Process
of Law.......................... ...............................................................
25

IV.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right to Due Process of Law to a
Unlawfully Enhanced Sentence by the use of Unqualified
Predicates of Conspiracy Pursuant to § 846 and
§ 53a-48(a)

26

(a) Categorical approach applies and forbids the use
of § 846 conspiracy to qualify as a predicate to
enhance a sentence under § 851 and 4Bl.l(a)................ .. 26"
(b) Connecticut conspiracy of § 53a-48(a) cannot
categorically qualify as a predicate offense to
enhance a sentence under § 851 and § 4Bl.l(a) ..

30

(c) The conflict between the circuit courts involve
an important question of statutory construction
concerning Commentary of the United States
Sentencing Guidelines ...................................................

33

(d) Sentencing Commission exceeds it's authority
with § 4B1.2 Commentary Application Note 1 ........

36

CONCLUSION

39

iv

INDEX OF APPENDICES

United States Court of Appeals for the First Circuit,
Judgment in Appeal No. 17-1677 ................................ .

Appendix A

Narrative for Patrol Kevin R. Bousquet of the
Narragansett Police Department ..................

Appendix B

Narrative for Patrol Matthew C. Riley of the
Narragansett Police Department ................

Appendix C

State of Connecticut v. Damon Graham,
Information/Complaint, for case no. CR98-0465439-T .. Appendix ©
United States District Court for the District of
Rhode Island Memorandum and Order ..................

v

Appendix E

TABLE OF AUTHORITIES
Cases
Alleyne v. United States

Page
133 S. Ct. 2151 (2013)

31

Apprendi v. New Jersey, 530 U.S. 466 (2000)....

17/, 31

Buck v. Davis. 197 L.Ed.2d 1 (2017)..........................................

6

Connally v. General Construction Co., 269 U.S. 385 (1926)

26

Damon Graham v. United States, 2017 U.S. Dist. LEXIS 93632
(D.R.I. 2017)

1

Descamps v. United States, 570 U.S. 254 (2013)

. 19, 20, 24

Florida v. Jardines, 133 S. Ct. 1409 (2013) . ...

7, 8, 10, 12

Georgia v. Randolph, 547 U.S. 103 (2006).......... .

11

Gundy v. United States, 204 L.Ed.2d 522 (2018) .

36

Harbin v. Sessions. 860 F.3d 58 (2nd Cir. ,2017)

18

Hill v. Lockhart, 474 U.S. 52 (1985) ....................

14

Hillocks v. AG United States, 934 F.3d 332 (3rd Cir. 2019)

18

Johnson v. United States, 135 S.Ct. 2551 (2015)

25

Katz v. United States, 389 U.S. 347 (1967) ........

10

Kimmelman v. Morrison, 477 U.S. 347 (1986)

11, 12, 13, 14

Kolender v. Lawson, 461 U.S. 352 (1983) ...

26

Kyllo v. United States, 533 U.S. 27 (2001)

11

Mathis v. United States. 136 S.Ct. 2.243 (2016). 16, 17, 18, 19, 20, 22, 24
- Mellouli v. Lynch, 1-35—S-. 'Ct. 1980 (2015)..........

28, 29

Mistretta v. United States, 488 U.S. 361 (1989)

36, 38

Moncrieffe v. Holder, 569 U.S. 184 (2013) ..........

29

Rakas v. Illinois. 439 U.S. 128 (1978) ................

11

Bchad v. Arizona, 501 U.S. 624 (1991)............. ..

vi

19, 24

Skilling v. United States, 177 L.Ed.2d 619 (2010) ....

. 25

Stinson v. United States, 508 U.S. 36 (1993)...............

. ...35, 37, 38

Strickland v. Washington, 466 U.S. 668 (1984) ............

............ 13, 14

Taylor v. United States, 495 U.S. 575 (1990)................

20, 27, 28 , 33

Trevon Sykes v. United States, 196 L.Ed.2d 6 (2016) .

22

Trevon Sykes v. United States, 200 L.Ed.2d 738 (2018)

23

United States v. Adams, 934 F.3d 720 (7th Cir. 2019)

34

United States v. Batchelder, 422 U.S. 114 (1979) ____

26

United States v. Davis, 204 L.Ed.2d

33

757 (2019) ........

United States v. Epps, 322 F.Supp.3d 299 (D.Conn 2018) .

17, 21, 24

United States v. Havis,, .927 F.3d 382 (6th Cir. 2019)
(en banc)............ ................................................................

34, 37, 38, 39

United States v. Jackson, 60 F.3d 128 (2nd Cir. 1995)

.34

United States v. Jacobson, 466 U'.S. 109 (1984)..............

11

United States v. Jones. 181 L.Ed.2d 911 (2012) ............

12

United States
v. Lange, 862 F. 3d 1290 (11th Cir.. 2017), cert. denied,
_______
138 S. Ct. 4F8'(2017).............................................. ............................34
United States v. Marrero. 743 F.3d 389 (3rd Cir. 2012), cert, granted,
133 S. Ct."' 2732 (2013) ..
34
United States v. Martinez-Cruz

836 F. 3d 1305 (10th Cir. 2016).. . . 34

United States v. Mendoza-Figueroa, 65 F.3d 691 (8th Cir. 1995),
cert, denied, 516 U..S. 1.125 (1996), reh. den. , 517 U.S. 1151 (1996).,. . 34
United States v. Naylor, 682 Fed Appx.. 511 (8th Cir. 2016)............

22

United States v. Naylor_II, 8.87 F.3d 397 (8th Cir. 2017)(en banc). .22, 23
United States v. Nieves-Bolcrero, 856 F.3d 5 (1st Cir. 2017)

34

United States v. Norman, 935 F.3d 232 (4th Cir. 2017.)

34

United States v. Rivera-Constantino, 798 F. 3d 900 (9th Cir. 2015)...34
United States v. Rodriguez-Escareno, 700 F.3d 751 (5th Cir. 2012),
cert, denied, 569 U.S. 96/ (2013)

vii

34

United States v. Rollins, 836 F.3d 737 (8th Cir. 2016)

37, 38

United States v. Savage, 542 F.3d 959 (2nd Cir. 2008) .... 16, 23, 32
United States v. Shabani, 513 U.S. 10 (1994) ......................

27, 28, 31

United States v. Sykes, 864 F.3d 842 (8th Cir. 2017) ___

w.22

United States v. Winstead, 890 F.3d 1082 (D.C. Cir. 2018).... 34, 37
Welch v. United States. 136 S. Ct. 1257 (2016)

6

Wolf v. Colorado, 338 U.S. 25 (1949) ..................

12

Statutes
18 U.S.C. § 924(c)(1)(A)

14, 15

18 U.S.C. § 3582(c)(2) ..

35

21 U.S.C. § 802(44) . .;. . .

2,- 28, 31, 32

21 U.S.C. § 841 et esq1..

3

21 U.S.C. § 841(a)(1) ...

18

21 U.S.C. § 841(b)(1)(A)

-..18

21 U.S.C. § 841(b)(1)(B)

18, 32

21 U.S.C. § 841(b)(1)(C)

■. 18

21 U.S.C. § 841(b)(1)(D)

18

21 U.S.C. § 846 ................

.................. 3, 26, 27, 28, 29, 31, 33

21 U.S.C. § 851(a)(1)...

3, 15, 25, 26, 27, 28, 30, 31, 32, 33

28 U.S.C. § 994(o) ..........

34

28 U.S.C. § 994(p) ..........

38

28 U.S.C. § 994(x) ..........

38

28 U.S.C. § 1254(1) TT77-.

1

28 U.S.C. § 2101(c) ........

1

28 U.S.C. § 2253(c)(2) ..

6

28 U.S.C. § 2255(a) ........

5, 7, 16, 19, 21

viii

U.S.S.G. § 4B1.1 . .

.............................................. 27, 29

U.S.S.G. § 4B1.1(a)

. ... 3, 26, 28, 29, 30, 32, 33, 35

U.S.'S.G. § 4B1.2 . . .

20, 27, 28, 33, 35, 36, 37, 38, 39

U.S.S.G. § 4B1.2(b)

. ... 4, 16, 30, 32, 34, 36, 37, 39

U.S.S.G. § 4B1.2 Commentary, Application
Note 1.................................. .....................

3, 27, 34, 36, 37, 38, 39

Conn. Gen. Stat. § 21a-240(50)

.......................... 4, 23, 32

Conn. Gen. Stat. § 21a-269. . . . .

30

Conn. Gen. Stat. § 21a-277(a).

4, 16, 17, 18, 24, 30, 31, 32

Conn. Gen. Stat. § 53a-48........

.................... 4, 26, 30, 31, 32

Mo. Ann. Stat. § 569 170(1) ...

22

ix

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR Writ OF CERTIORARI
Damon Graham respectfully petitions the Supreme Court of the
United States for a writ of certiorari to review the Judgment of
the United States Court of Appeals for the First Circuit, issued
in Case No. 17-1677 on February 26, 2020, denying the issuance of
a certificate of appealability.
OPINIONS BELOW
There was no opinion from the United States Court of Appeals
for the First Circuit. Judgment was issued on February 26, 2020,
and is attached as Appendix A to this petition.
The opinion of the United States District Court for the
District of^Rhode Island is reported at Damon Graham v. United
States, 2017 U.S. Dist. LEXIS 93632 (D.R.I. 2017), was issued on
June 19, 2017. (See Appendix E).
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1) <and 28 U.S.C. § 2101(c).

1

!

CONSTITUTIONAL PROVISIONS INVOLVED
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.
United States Constitution IV Amendment.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless, on a presentment or
indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when
in actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property
without due process of law; nor shall private property
be taken for public use, without just compensation.
United States Constitution V Amendment.
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.
United States Constitution VI.Amendment.
STATUTORY PROVISIONS INVOLVED
As used itjrvthis title:

(44) the term "felony drug offense" means —
an offense that is punishable by imprisonment
for more than one year under any law of the
United States or of a State or foreign
country that prohibits or restricts conduct
relating to narcotic drugs, marijuana,
anabolic steroids, or depressant or stimulant
substances.
21 U.S.C. § 802(44) Definitions.

2

§ 846* Attempt and Conspiracy
Any person who attempts or conspiries to commit
any offense defined in this title shall be
subject to the same penalties as those
prescribed for the offense, the commission of
which was the object of the attempt or conspiracy.
§ 851. Proceedings to establish previous convictions
(a) Information filed by United States Attorney
(1) No person who stands convicted of an offense
under this part [21 U.S.C.S. §§841 et esq.]
shall be sentenced to increased punishment by
reason of one or more prior convictions, unless
before trial, or before entry of a plea of
guilty, the United States attorney files an
information with the court {.and serves a copy of
such information on the person or counsel for
the person) stating in writing the previous
convictions to be relied upon. Upon a showing by
the United States attorney that facts regarding
prior convictions could not with due diligence
be obtained prior to trial or before entry of a
plea of guilty, the court may postpone the trial
or the taking of the plea of guilty for a
reasonable period for the purpose of obtaining
such facts. Clerical mistakes in the information
may be amended at any time prior to the
pronouncement of sentence.
OTHER STATUTORY PROVISIONS INVOLVED
§ 4B1.1. Career Offender
(a) A defendant is a career offender if (1) the
defendant was at lease eighteen years old at
the time the defendant committed the instant
offense of conviction; (2) the instant offense
of conviction is a felony that is either a
crime of violence or a controlled substance
offense; and (3) the defendant has at least two
prior felony_convictions of either a crime of
violence or a controlled substance offense.
Commentary Application Note:
1.

For purposes of this guideline - ■
Crime of violence" and ^controlled substance
Offense" include the offenses of aiding and

3

abetting, conspiring, and attempting to commit
such offenses.
United States Sentencing Guidelines, Commentary Application Note 1
CONNECTICUT STATUTES INVOLVED
Title 21a Consumer Protection
Chapter 420b Dependency-Producing Drugs
Sec. 21a-277. (Formerly Sec. 19-480). Penalty for illegal
manufacture, distribution, sale, prescription, dispensing.
(a) Any person who manufactures, distributes, sells,
prescribes, dispenses, compounds, transports with
the intent to sell or dispense, possesses with the
intent to sell or dispense, offers, gives, or
administers to another person any controlled
substance which is a hallucinogenic substance other
than marijuana, or a narcotic substance, except as
authorized in this chapter., for a first offense,
shall be imprisoned not more than fifteen years and
may be fined not more than fifty thousand dollars
or be both fined and imprisoned; and for a second
offense shall be imprisoned not more than thirty
years and may be fined not more than one hundred
thousand dollars, or be both fined and imprisoned;
and for each subsequent offense, shall be imprisoned
not more than thirty years and may be fined not more
than two hundred fifty thousand dollars, or be both
fined and imprisoned.
Connecticut General Statute § 21a-277(a).
(a) A person is guilty of conspiracy when, with
intent that conduct constituting a crime be
performed, he agrees with one or more persons to
engage in or cause the performance of such
conduct, and any one of them commits an overt act
in pursuance of such conspiracy.
Connecticut General Statute § 53a-48. Conspiracy. Renunciation
(50) "Sale” -

1________

is any form of delivery, which includes barter,
exchange or ,'gift, or joffer therefor, land each
such transaction made by any person whether as
principal, proprietor, agent, servant or employee.
Connecticut General Statute § 21a-240 Definitions.

4

STATEMENT OF THE CA.SE
On January 4, 2017, the Petitioner filed a motion to vacate,
set aside or correct sentence pursuant to 28 U.S.C. § 2255(a) with
memorandum in support on several grounds for relief to the United
States District Court for the District of Rhode Island.
On June 19j;;2017 the district court issued it's memorandum
and order denying all claims in Petitioner's § 2255 motion and
also denied Petitioner the right to a certificate of appealability.
On July 5, 2017 a notice of appeal was filed by Petitioner to
the United States Court of Appeals for the First Circuit seeking a
certificate of appealability to review the district court's denial
of Petitioner's § 2255 motion.
On July 19, 2017 the First Circuit issued an order stating
Petitioner has until August 18, 2017 to file a memorandum why a
4

certificate of appealability should be issued.
On August 17, 2017 Petitioner timely filed a memorandum
requesting that a certificate of appealability should be granted
because he had made a substantial

showing of the denial of a

constitutional right.
On February 26, 2020 the First Circuit issued a brief
judgment without an opinion denying Petitioner a certificate of
appealability stating that the Petitioner failed to make a
substantial showing of the denial of a constitutional right.

5

REASONS FOR GRANTING THE WRIT
This Court should grant the writ because the court of appeals
erroneously denied Petitioner a certificate of appealability (COA)
without a limited legal analysis of the law pertaining to the
specific facts, reasons and issues with each claim listed in
Petitioner's application for issuance of a COA. Congress required
that a COA may issue "only if the applicant has made a substantial
showing of the denial of a constitutional right." see 28 U.S.C.
§ 2253(c)(2). The threshold standard for granting a COA before any
arguments on the merits is a

substantial showing' and NOT a

'definite showing.'
This Court has clarified that the COA "standard .‘is bet when
'reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different
manner,.

f ir

Welch v. United States, 136 S. Ct. 1257, 1263 (2016), and

there will be situations where "a claim can be debatable even
though every jurist of reason might agree, after the certificate
of appealability has been granted and the case has received full
consideration, that [a] petitioner will not prevail." Buck v. Davis,
197 L.Ed.2d 1,8 (2017).
The First Circuit has sided with the district court's
conclusion by deciding~that Petitioner had not made a substantial
showing of the denial of a constitutional right by issuing a
vaguely, boiler-plate one paragraph statement denying Petitioner's
claims in his COA but failing to address each claim. Petitioner
avers that the district court as well as the First Circuit have

6

erroneously denied Petitioner the appropiate relief regarding the
claim(s) litigated within Petitioner's § 2255 motion and COA
respectively, and the denial of each was done arbitrarily,
capricious and as an abuse of discretion. Petitioner will show
this Court why the judgment of the First Circuit should be reversed
and the reason Petitioner should be granted his application for a
COA and the proper relief deserved with each claim.
I.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right by Ineffective Assistance of
Counsel for failing to investigate and file a Meritorious
Suppression .Motion,
(a) Meritorious Motion to Suppress.

The First Circuit has agreed with the district court's
conclusion of Petitioner not having made a substantial showing of
the denial of a constitutional right by counsel failing to file a
meritorious suppression motion on behalf of Petitioner. For the
Petitioner/to show a successful claim that is debatable on this
issue would require a meritorious suppression motion that counsel
failed to research and file with the district court and how
counsel's irresponsible pretrial incompetence prejudiced the
Petitioner.
The premise of Petitioner's claim is that Detective Bousquet
along with K-9 Officer Riley and K-9 Goro (NPD drug-detection dog),
all of the Narragansett Police Department, executed a warrantless
unconstitutional search by using K-9 Goro to sniff the front seam
of locker unit number 45 that was rented !by .the '.Petitioner at a
self-storage facility in Narragansett Rhode Island.
This Court granted certiorari in Florida v. Jardjnes, limited
7

■}

to the question of whether the officers' behavior was a search
within the meaning of the Fourth Amendment. 133 S. Ct. 1409, 1414
(2013). K-9 Officer Riley stated in his written narrative of the
incident during the events prior to the issuance of the search
warrant at the storage unit,that "he (K-9 Goro) was given the
command to "search" for narcotics." (Appendix C). K-9 Officer Riley
also admitted in his report that while he was controlling K-9 Goro,
he gave the command for K-9 Goro to search several other units in a
ascending and descending numercial order leading up to Petitioner's
unit.
The occupation of the storage unit and personal possessions
of the Petitioner are constitutionally protected by the Fourth
Amendment as "papers and effects." The Fourth Amendment "indicates
with some precision the places and things encompassed by its
protection: persons, houses, papers, and effects." Ibid. Even
. though the search at issue did not occur at the curtilage to the
Petitioner's residence, this Court was clear when it stated in the
majority opinion of Jardines "[w]hefi the Government obtains
information by physically intruding on persons, houses, papers, or
effects, a search within the original meaning of the Fourth
Amendment has undoubtedly occurred." Ibid.
Detective Bousquet learned the whereabouts of the storage
facility by illegally seizing the innocuous set of keys by mere
'suspicion and surmising' what the keys were used for and not
probable cause as the Fourth Amendment mandates, then initiating
another investigation into the keys with the hopes that something

8

incriminating might arise thus creating a 'fishing expedition'
during the search of the Graham's residence. After a further look
into the keys use and several officers driving around checking a
few different storage facilities, Detective Bousquet located Self
Storage Center, the storage facility utilized by the Petitioner,
requested renter information from the storage facility owner
Joseph Victoria who denied relinquishing the information without
a subponea. At 1:30 p.m. est. Detective Bousquet returned to the
storage facility with the subponea in hand, delivered it to the
owner

Mr. Victoria who retrieved and gave the information to

Detective Bousquet.
Once Detective Bousquet received Petitioners name as the
units renter, he then asked to see the unit and was guided to the
units location by Mr. Victoria to "observe that the lock was [a]
Chateau pad lock." (Appendix B at 2). Once this observation of
the lock was finished, that should have ended the matter with
Detective Bousquet from any further actions until a search warrant
was issued but he chose to radio for the assistance of K-9 Officer
Riley and K-9 Goro to assist "with an on-going investgation" (see
Appendix C), and once at the Petitioner's unit, K-9 Goro's body
language changed and the K-9 begin to scratch at the lock and base
of the units sliding metal door which was a positive reaction for
the presence of some kind of substance.
Through the normal course of any given day, any citizen could
visit a storage facility, talk to the owner and view a storage v.
unit to rent which would occur as normal activity to anyone in

9

society but introducing a trained narcotics detection dog into the
picture with hopes of discovering incriminating evidence creates a
different perspective. Jardines, 133 S. Ct. at 1416. Drug detection
dogs are highly trained tools of law enforcement, geared to respond
in distinctive ways to specific scents so as to convey clear and
reliable information to their human partners ... specialized device[.s]
for discovering objects not in plain view (or plain smell). Id. at
1418 (Kagan, J., concurring opinion).
The action of K-9 Officer Riley using K-9 Goro to sniff the
bottom of the storage unit occupied by the Petitioner was a
warrantless 'unreasonable search

in violation of the Fourth Amendment.

This Court has reiterated on numerous occasions the proper channels
law enforcement must pursue before initiating a search where the
Court opined that "the mandate of the Fourth Amendment requires
adherence to

judicial processes, and that searches conducted outside

the'judicial process, without prior approval by judge or magistrate,
are per se unreasonable under the Fourth Amendment -- subject only to
a few specifically established and well-delineated exceptions." Katz
v. United States, 389 U.S. 347, 357 (1967).
After viewing that the lock and key at the storage unit were
manufactured by the same company, that should have ended the
inquiry from Detective-Bousquet, but instead of departing from "the
4-

facility and returning with a valid search warrant, he chose to
request for K-9 assistance and initiate a search and caused all
officers present to violate Petitioner's expectation of privacy
by physically intruding and invading upon the storage unit and

10

all of the personal contents stored inside.
This Court has been adamant over the past several decades on
explaining the bulwark protections of the Fourth Amendment when
it pertains to individuals expectation of privacy. For the
Petitioner to prevail on a claim that his legitimate expectation
of privacy "has been violated by an illegal search or seizure,"
the [petitioner] ''need .prove only that the search or seizure was
illegal and that it violated his reasonable expectation of privacy
in the item[s] or place at issue. Kimmelman v. Morrison, 477 U.S.
365, 374 (1986). A search occurs when an expectation of privacy
that society is prepared to consider reasonable is infringed.
United States v. Jacobson, 466 U.S. 109, 113 (1984). An expectation
of privacy is reasonable if it has "a source outside of the Fourth
Amendment

either by reference to concepts of real or personal

property law or to understandings that are recognized and permitted
by society." Georgia v. Randolph, 547 U.S. 103, 111 (2006)(quoting
Rakas v. Illinois, 439 U.S. 128, 144, n. 12 (1978)). Also, regardless
of the scope of the instrument (drug-detection K-9) at use, the
device is not "in general public use," training it on a [storage
unit] violates our "minimal expectation of privacy" -- an expectation
"that exist, and that is acknowledged to be reasonable." Kyllo v«
United States, 533 U.S. 27, 33-36 (2001).
It is apparent that officers only learned the information they
acquired at the storage unit was by the sniff from the K-9, and
used that information to bolster their chances of receiving a
search warrant for the storage unit because the -officers jdid not

11

have probable cause as required to justify a judicially issued
search warrant. This Court had made clear "that ^because] the. officers
i

learned what they learned only by physically intruding on
[Petitioner's] property to gathers evidence is enough to establish
that a search occurred," Jardines, 133 S. Ct. at 1417, and "when the
Government does engage in physical intrusion of a constitutionally
protected area in order to obtain information, that intrusion may
constitute a violation of the Fourth Amendment." United States v.
Jones, 181 L.Ed.2d 911, 920 (2012). The security of ones privacy
against arbitrary intrusion by the police - which is at the core of
the Fourth Amendment is basic to a free society. Wolf v. Colorado.
338 U.S. 25, 27 (1949).
By officers using a trained narcotics detection K-9 on the
, storage unit under Petitioner's control to commit a warrantless
search was a clear violation of Petitioner's right to be free from
unreasonable searches and a further infringement on Petitioner's
right to an expectation of privacy by law enforcement transgressing
the Fourth Amendment.
(b) Ineffective Assistance of Counsel
The Sixth Amendment of the United States Constitution provides
in relevant part

"in all criminal prosecutions, the accused shall

enjoy the right ... to have the Assistance of Counsel for his
defence." The constitutional guarantee of counsel, however, "cannot
be satisfied by mere formal appointment." Kimmelman, 477 U.S. at 377.
The basis of an ineffective assistance of counsel claim requires the
Petitioner to meet the two-part test first expressed by this Court

12

'

in Strickland v. Washington, 466 U.S. 668 (1984). In order to prevail,
the defendant must show both that counsel's representation fell below
an objective standard of reasonableness, jEd. at 688, and that there
exists a reasonable probability that, but for counsel's unprofessional
errors, the results of the proceeding would have been different. Id.
at 694. Where defense counsel's failure to litigate a Fourth Amendment
claim competently is the principal allegation of ineffectiveness, the
defendant must prove that his Fourth Amendment claim is meritorious
and that there is a reasonable probability that the verdict (or the
results of the proceeding) would have been different absent the
excludable evidence in order to demonstrate actual prejudice.
Kimmelman, 477 U.S. at 357.
Regarding the 'reasonableness' part of the test with counsel
being constitutionally deficient, there was no sound strategy or
rational reason for counsel failing to research, file and litigate
the meritorious suppression motion during pretrial. Instead, counsel
chose to forgo investigating into the legality of the search at the
storage unit and decided to seek plea negotations with the prosecutor
before committing some degree of necessary effort and due diligence
towards researching the obvious Fourth Amendment issue.
the negligence of counsel was not at the level of competency
expected of a trained professional in the law. .This error 'shows a
lack df willingness 'from counsel to properly /defend .Petitioner !or
/

counsel, total ignorance of the .law applicable to the lease, thus
bearing an affect on "the adversarial testing process [to] inot
function properly unless defense counsel has done some investiagtion

13

+-

into the prosecution's case and into various defense strategies.
Kimmelman, 477 U.S.'at 384. Counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes
particular investigations unnecessary. Ibid.
The second part of the test issued by this Court in Strickland
is the prejudice prong which is tied to the constitutional
deficiency of counsel and in the case of Petitioner concerning a
guilty, plea, the criterion to satisfy is that there is a reasonable
probability that, but for counsel's errors he would not have plead
guilty and would have insisted on going to trial. Hill v. Xockhart,
474 U.S. 52, 59 (1985). After a review of the whole record, one
could reasonably deduce that the Petitioner would have pursued
- . trial instead of pleading guilty without a formal written plea
agreement.
If counsel had sought the meritorious suppression motion during
the pretrial stage of the proceedings, it would have changed the
dynamics of the charges against the Petitioner and the outcome
leading to the guilty pled but also eliminating three counts of the
first indictment and one of the additional counts brought forth by
the Government in the superseding indictment. The only agreement by
the Government to a plea bargain were the dismissal of counts III
and VI that were both-18 U.S.C. § 924(c)(1)(A) offenses—I that did
carry a hefty penalty prior to the enactment of the First Step Act,
but the Petitioner would hardly consider the agreement with the
lj A viewirg of the Judgient and CfcmnitnEnt exhibits the two counts of §. 924(c)(1)(A) teiig
dismissed cn a notion ty the Gcverment in case no. 1:13Q3001321}1M_,. (EEF N6. 123)

14

'£

Government a plea-bargain as the prosecutor would not agree to
dismiss or drop any other counts in the superseding indictment,
would not remove the § 851 Information to Establish Prior
Convictions enhancement, or to substitute the counts

carrying a

mandatory minimum penalty.
The obvious and logical reason the Government pursued the
additional counts of the § 924(c)(1)(A) charges in the superseding
indictment was to tip the scale of bargaining in their favor and
covertly force a guilty plea out of the Petitioner but this could
have been .prevented and never occurred if .the suppression motion was
granted for the Petitioner, but more importantly, if counsel's
incompetent and egregious error had not transpired by the lack of
researching and filing the meritorious Fourth Amendment claim.
From reading the above stated facts, reasons and issues
pertaining to the ineffective assistance of counsel claim, if not
for counsel's lack of due diligence during pretrial preparation and*
failing to advance the meritorious Fourth Amendment issue, counsel's
representation fell below an objectionable standard of reasonableness
and there is a reasonable probability that because of counsel's
unprofessional error, that this mishap caused prejudice upon the
Petitioner by missing a favorable opportunity that would have
—- produced a different result of the proceedings. Jurists of reason

~

could conclude that the Petitioner has made a substantial showing
of the denial of a constitutional right and find the issue debatable
to deserve further review.

15

II..

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right to Due Process of Law because
Connecticut General Statute § 21a-277 for Sale of
Hallucinogen/Narcotic is overly broad and Indivisible
which disqualifies the use as a predicate for the .career
offender enhancement.
(a) Indivisible and Conjunctive statute

There is no dispute among the parties involved that Connecticut
General Statute § 21a-277 is overly broad and does not categoically
qualify as a 'controlled substance offense' within the meaning of
.2 ‘

the United States Sentencing Guidelines §4B1.2(b) and cannot be
used as a predicate for the career offender enhancement. The
discrepancy is the district court premised the Connecticut drug
statute is 'divisible' and applied the modified categorical approach
but this action along with the district court's reason.for denying
the Petitioner the proper relief was seriously flawed. Petitioner
, will address the error of the district court and explain why jurists
of reason will agree that this claim should have been decided in a
different manner.
This Court gave the lower courts direction on when to apply
the categorical approach or the modified categorical approach, and
also, how to discern when a statute in question involves only
elements or enumerates various factual means of committing a single
element. Mathis v. United States, 136 S. Ct. 2243, 2249 (2016).

2j The Gqverrmait agreed with the Second Circuit decision of Savage, infra, that Connecticut
General Statute s 21a-277(a) is over-bread lard the categorical approach fails with this statute.
See GovemtEnt's Opposition Motion, at 12,: |to iPetitiofiet's ,'§ 2255 motion. (EEF No. 154).
The district court also accepted the Second 'Circuit's analysis of Savage as 'persuasive authority'
that the Connecticut dreg statute does rot categorically qualify as a predicate offense. See
district court's Manorandun & Order, at 17 (KF No. 156).

16

The first task for a sentencing court faced with an
alternatively phrased statute is . . . to determine whether
its listed items are elements or means. If they are
elements, the court should do what we have previously
approved: review the record materials to discover which
of the enumerated alternatives played a part in the
defendant's prior conviction, and then compare that
element (along with all others) to those of the generic
crime. But if instead they are means, the courts has no
call to decide which of the statutory alternatives was
at issue in the earlier prosecution. ... [T]he court may
ask only whether the elements of the state crime and
generic offense make the requisite match.
Id. at 2256 (internal citation omitted); See generally United States
v. Epps, 322 F.Supp.3d 299, 302-03 (D.Conn. 2018). That directive
from the Court explained these methods for courts to use inorder
"[t]o determine whether a state statute list alternatives elements
or alternative means, courts are directed to consider whether: (l)
"a state court decision definitely answers the question;" (2) the
"statutory alternatives carry different punishments" and therefore
must be elements under Apprendi v. New Jersey, 530 U.S. 466, 490
(2000); and (3) the statute itself "identif[ies] which things must

'f.

charged (and so are elements) and which need not be (and so are
means)." Epps, 322 F.Supp. at 303 (quoting Mathis

136 S. Ct. at 2256) .

Connecticut caselaw is inconclusive as to whether § 21a-277(a)
describes elements or means, thus excluding option one as a choice.
Option number two however does provide some guidance on how to
determine whether § 21a-277(a) is divisible or indivisible. The
Connecticut statute at issue reads in part:
"(a) Any person who manufactures, distributes, sells,
prescribes, dispenses, compounds, transport with
intent to sell or dispense, possesses with intent to
sell or dispense, offers, gives, or administers to
another person any controlled substance . . . for the .

17

T

first offense, shall be imprisoned not more than
fifteen years ... and for a second offense shall be
imprisoned not more than thirty years..."
Conn. Gen. Stat. § 21a-277(a). A rational reviewing of the structure
and plain text of the statute, it becomes obvious that the statute
is 'indivisible' and "not one that lists multiple elements
disjunctively, but instead one that enumerates various factual means
of committing a single element." Mathis, 136 S. Ct. at 2249.
What further gives credence to this conclusion is regardless of
how a person violates the statute, they are still subjected to a
maximum fifteen year sentence for the first offense, whether they
"sell, dispense, offer[]? give[] or administers" any controlled
substance involved, the penalty is the same no matter the substance
possessed by the defendant. Harbin v. Sessions, 860 F.3d 58, 65
(2nd Cir: 2017)(reasoning that the fact that a statute carries the
same punishment regardless of which controlled substance is used
shows "that each controlled substance is a mere

means

of violating

the statute, not a separate alternative element"); Hillocks v. AG
United States, 934 F.3d 332, 344 (3rd Cir. 2019)(same).
The penalty is only increased to a maximum of thirty years if
the defendant is convicted of a subsequent offense of the same
statute, but never is someone enhanced based on the controlled
substance charged, nor the amount of the controlled substance
involved, cf_. 21 U.S.C. § 841(b)(1)(A), (B), (C) or (D). The district
court either failed to recognize this Court's directive of utilizing
option two to discern whether the Connecticut statute iisted elements
alternavtively or multiple means and also reflective of the nature of

18

the statute being divisible or indivisible in the Petitioner s case
or just ignored this requirement of the law offered by this Court.
(b) The District Court thought the Connecticut
statute to be disjunctive and applied the
modified categorical approach because the text
of the statute embodies the word 'or'.
The district court also erred when it stated in a footnote of
the court's Memorandum and Order denying Petitioner's § 2255 motion
that by the Connecticut statute having the disjunctive word "or" in
the text, that this formation automatically indicates the statute
to list elements in the alternative and thus defining multiple
crimes. If this Court had agreed with the assumption of the district
court, then the Court would have necessarily reached a different
ruling in the decision of Descamps v. United States
This Court has never held that the word 'or

570 U.S. 254 (2013).

in the text of a

statute automatically makes the statute disjunctive, but has
actually indicated to the contrary by stating "legislatures

3

frequently enumerate alternative means of committing a crime without
intending to define separate elements or separate crimes." Schad v.
Arizona, 501 U.S. 624, 636 (1991)(plurality opinion).
This Court has been consistently clear about when a prior
predicate could qualify for use as an enhancement where the Court
opined "CUf ';the relevant statute has the same elements as the
"generic" crime, then the prior conviction can serve as a
[enhancement] predicate; so too if the statute defines the crime
more narrowly, because anyone convicted under that law is
ILL In a footnote of the district court's fferorandun & Order at 17, is vhere the court erroneously
addressed that Mathis helps the court decide that the Connecticut statute is disiirr.Hvp. 1
ch.
at 2249.

■

19

___

"necessarily guilty of all the [generic crime's] elements." (citation
omitted)(ellipsis omitted). But if the statute sweeps more broadly
than the generic crime, a conviction under the law cannot count as
a E] predicate, even if the defendant actually committed the offense
in its generic form, Descamps, 570 U.S. at 261, the mismatch of
elements saves the defendant from an [enhanced] sentence. Mathis,
136 S. Ct. at 2251.
In Descamps, this Court decided "that sentencing courts may
not apply the modified categorical approach when the crime of which
the defendant was convicted has a single, indivisible set of
elements." ;Id. at 258. "A court may use the modified approach 'only'
to determine which alternative element in a divisible statute formed
the basis of the defendant's conviction, jtd. at 278. [W]e adopted
the modified approach to help implement the categorical inquiry,
not to undermine it." Id. at 277.
This Court offered three grounds for establishing [the]
elements-centric, "formal categorical approach." Taylor v. United
States, 495 U.S. 575

600 (1990). First

it comports with [the

Guidelines §4B1.2] text and history. Second, it avoids the Sixth
Amendment concerns that would arise from sentencing courts' making
findings of fact that properly belong to juries. And third, it
averts "the practical difficulties and potential unfairness of a
factual approach." Id., at 601; Descamps, 570 U.S., at 267.
The district court flouts this Court's rule of law first by
applying the modified categorical approach to a indivisible statute,
then the second error was the court's continuing inquiry to

20

determine the factual basis of Petitioner's plea in his prior state
■4

conviction by inspecting the plea transcripts. As this Court has
stated, th[is] is what we have expressly and repeatedly forbidden.
Courts may modify the categorical approach to accommdate alternative
"statutory definitions." Id_. , at 274.
The Epps Court out of the District of Connecticut came to the
correct conclusion where it stated the following in the court's
opinion:
While Connecticut state courts do not require that
a defendant be charged with a specific actus reus
under § 21a-277(a), the actions are only means of
triggering liability, not distinct elements of the
crime. See :State v. Cavanaugh (noting that "the
..state charged the defendant ... with conspiring to
distribute, sell or otherwise dispense a narcotic
substance in violation of General Statutes § 21a.277(a)," not specifying one act in particular).
Given this language, and applying the rule of
-lenity, the Court concludes, while recognizing
this to be a very close question, that the actions
listed in the statute are indivisible and define
only a single crime.
Epps, 322 F.Supp.3d, at 305-06.
(c)This Court has addressed and rejected the exact
issue 6f the word "or" making a statute disjunctive
from the Eighth Circuit Court of Appeals.
Several dissenting circuit judges from the Eighth Circuit Court
of Appeals had the right thesis in mind when questioning whether the
word "or" makes a statute disjunctive and lists alternative elements
or various factual means when the judges stated " [t]o observe that
the statute is phrased in the disjunctive merely raises the question
4j The Government submitted the Charging Information and Plea-Hearing colloquy frcm Petitioner's
prior Gornecticut state conviction during fhe collateral proceedings as attachments to the
Gcvemnent's Response Opposition to Petitioner's § 2255 notion as Exhibit A and Exhibit B
respectively. (EOF Nbs. 154-2 and 154-3).

21

of means versus elements; it does not answer the question ...
merely observing that the statute is phrased in the disjunctive
is not a sufficient explanation. That task cannot be completed
simply by declaring that because the statute is phrased
alternatively (i.e., in the disjunctive), the alternatives must
be elements." United States v. Sykes, 864 F.3d 842, 843-44 (8th
Cir. 2017)(dissenting opinion from the denial of rehearing en
banc, Colloton, Circuit Judge, with whom Gruender, Benton and
Kelly, Circuit Judges join).
The dissenting jugdes stated the above after this Court
granted certiorari, vacated the judgment of the Eighth Circuit,
and remanded the case back for further consideration in light of
the Court's decision in Mathis. See Trevon Sykes v. United States )
196 L.Ed.2d 6 (No. 15-9716) October 3, 2016.
Even though the Eighth Circuit was right in it's.logic after
Mathis, the circuit court still missed the mark with it's

-j'.

conclusion in Sykes that Missouri Annotated Statute § 569.170(1)
for second-degree burglary was divisible because the statute was
phrased disjunctively by the word "or". Sykes, 864 F.3d, at 842;
see also United States v. Naylor, 682 Fed. Appx. 511, 512-13 (8th
Cir. 2016). The Eighth Circuit later reheard Naylor en banc and
reversed course with the court's previous conclusion and decided
that § 569.170(1) was "indivisible" by the drafting of the statute
and embodies means only and not elements of committing seconddegree burglary. United States v. 'Naylor II, 887 F.3d 397
(8th Cir. 2017)(en banc).

22

407

.

Trevon Sykes petitioned this Court once more after the Eighth
Circuit reheard Naylor en banc and was again granted certiorari,
this Court vacated the judgment of the Eighth Circuit and remanded
back for further consideration this time in light of the Eighth
Circuit's own deision in Naylor II. See Sykes v. United States, 200
L.Ed.2d 738 (No. 16-9604) April 16, 2018.
(d) Sale is defined broadly in Connecticut
The district court relied upon a decision from the Second
Circuit Court of Appeals as persuasive authority for part of the
court's reason for denial, but failed to notice or mention a key
point from the circuit court that the definition of "sale" is overly
broad in Connecticut. Connecticut defines the word

sale' in

pertinent part as " any form of delivery, which includes barter,
exchange or gift, or offer therefor." Conn. Gen.Stat. § 21a-240(50).
The Second Circuit had stated that "we have explained, the
Connecticut Statute criminalizes non-predicate conduct by virtue
of the broad definition given to "sale" under Connecticut law.
Because a "sale" under Connecticut law includes a mere offer to sell
drugs, and an offer to sell drugs is not a controlled substance
offense, the conviction does not qualify as a controlled substance
offense." United States v. Savage, 542 F.3d 959, 967 (2nd Cir. 2008).
With the broad definition pertaining to the word

sale' in

Connecticut, a sale could only be deemed as 'illustrative examples'
or ways of accomplishing a potential controlled substance transaction
in the State of Connecticut. This Court had determined that "if a
statutory list is drafted to offer "illustrative examples," then it

23

includes only a crime's means of commission[, and] if instead they
are means, the court has no call to decide which of the statutory
alternatives was at issue in the. earlier prosecution." Mathis, 136
S. Ct., at 2256.
Relevant to todays jurisprudence concerning the categorical
approach after the Court's decisions of Descamps and Mathis, it is
evident that the Second Circuit misapplied the modified categorical
approach in S avage when § 21a-277(a) is a indivisible statute. ;£pps,
322 F.Supp.3d, at 306. The District Court and the First Circuit failed
to recognize that Savage predates both Descamps and Mathis, which
both opinions by this Court brought clarity on how lower courts are
to use the categorical approach when certain statutes are in question
as predicate offenses for enhancement purposes.
After analyzing the structure of § 21a-277(a), it can be deduced
that the word

or' in the text of the statute is a conjunctive

connector forming one whole reading by the state legislature, Schad,
501 U.S., at 636, and making the Connecticut drug statute indivisible.
Lastly, the broad definition of the word "sale" further verifies this
point, exposing the errors of the district court and the circuit
court by denying the Petitioner a COA. It is clear that Petitioner
has made a substantial showing of the denial of a constitutional
right and reasonable jurists would undoubtedly agree this claim was ---decided wrong.

24

III.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right Because 21 U.S.C. § 851 Invites
Arbitrary Enforcement In Violation of Due Process of Law.

The mandatory minimum and maximum penalties attached to Title
21 U.S.C. 841(a)(1), via subsection (b), are increased for a
defendant when a § 851 enhancement is sought through the use of a
prior conviction. Though § 851 puts Petitioner on notice that
based on a prior he is subjected to increased punishment, it fails
to provide notice that a prior conviction is a felony drug offense
predicate for the purpose of 841(b)(1) et seq., and therefore
invites arbitrary enforcement. Skilling v. United States, 177 L.Ed.
2d 619, 656 (2010).
Petitioner argues that § 851 is unconstitutionally vague and
deprives him of liberty without due process of law. The statute of
§ 851 provides in relevant part that if the Government files and
serves on the person, before trial, an information charging one or
/

more prior conviction, that person is subject to increased
punishment. Interestingly though, nowhere in the statute does
§ 851 define prior conviction, nor does it inform or infer that it
increases mandatory minimum or maximum penalties. In fact, a
reasonable person, such as this Petitioner, would read § 851 to
covertly deprive a person of liberty without due process of law
based on two features of the statute that are: (l) failing to define
the term prior conviction; and (2) applying convictions rather than
"felony drug offense."
In Johnson v. United States, 135 S. Ct. 2551, 2556-57 (2015),

25

'W

this Court was faced with a similar set of circumstances and decided
that "the Government violates due process by taking someones life,,
liberty, or property under a criminal statute so vague that it fails
to gives ordinary people fair notice of the conduct it punishes, or
so standardless that it invites arbitrary enforcement." (citing
Kolender v. Lawson, 461 U.S. 352, 357-58 (1983)). Indeed, the
prohibition against vagueness is a well recognized requirement,
congenial alike with ordinary notions of fair play and established
rules of law, and a statute that flouts it violates the first
essential of due process. Connally v. General Construction Co., 269
U.S. 385, 398 (1926). These principles apply not only to statutes
defining elements of crimes, but also to statutes fixing sentences.'
United States v. Batchelder, 422 U.S. 114, 123 (1979).
The failure of § 851 to define the term prior conviction as a
'felony drug offense' exposes Petitioner to arbitrary punishment
contrary to due process of law and showing a denial of a constitutional
right where jurists of reason would find the issue debatable.
IV.

Petitioner has Made A Substantial Showing of the Denial
of a Constitutional Right to Due Process of Law to a
Unlawfully Enhanced Sentence by the use of Unqualified
Predicates of Conspiracy Pursuant to § 846 and 53a-48(a).
(a) Categorical approach applies and forbids the use
of § 846 conspiracy to qualify._as a predicate to
enhance a sentence under § 851 'and §4Bl.l(a).

The conspiracy statute relevant to Petitioner's case provides
that:
Any person who attempts or conspires to commit any
offense defined in this subchapter shall be subject
to the same penalties as those prescribed for the
offense, the commission of which was the object of the __
attempt or conspiracy. 21 U.S.C. § 846. ______________ ^

26

The statute of § 846 conspiracy needs nothing :more than gii agreement
and not ;the intent ito ido anything more.
This Court has previously held that this particular conspiracy
statute stands on its own without the necessity of an overt act for
a conviction. United States v. Shabani, 513 U.S. 10 (1994). The
district court agreed with the Petitioner that conspiracy of § 846
does not require the commission of an overt act, court Memorandum
and Order at 25, but also believes § 4B1.1 does not because of the
commentary listing 'conspiring* as comprising the offenses of a
"crime of violence" or "controlled substance offense." See § 4B1.2,
cmt. n.l. The district court also premised the term 'felony drug
offense,' as read in § 841(b)(1), which acts as a bridge for the
;

application of an § 851 enhancement, is an equivalent term to
v

'conspiracy.' The district court and the court of appeals failed
to see the fallacy in determining such a presumption when denying
Petitioner a COA.
This Court has instructed lower courts to employ the categorical
approach to determine whether a prior conviction qualifies as a
predicate offense. Taylor, 495 U.S., at 600-02. This inquiry involves
two steps. The first step requires courts to review a generic
definition of the predicate offense. Id., at 598. The second requires
courts to determine whether the conviction at issue constitutes a
conviction of the generic offense. Id., at 600. If the offense of
conviction criminalizes conduct broader than that encompassed by the
generic offense, then the conviction does not categorically qualify.
By focusing on the legal question of what a conviction

27

_

^'

necessarily established, the categorical approach ordinarily works
to promote efficiency, fairness, and predictability in the
administration of [justice]. Mellouli v.' Lynch, 135 S. Ct. 1980,
1987 (2015). The offense of conspiracy itself cannot survive the
scrutiny of the categorical approach to sustain the use as a
predicate for an enhancement pertaining to either the § 851
information charging prior convictions or §4Bl.l(a) career offender
of the United States Sentencing Guidelines.
According to the definition section of Title 21, the term
"felony drug offense" means:
an offense that is punishable by imprisonment for
more than one year under any law of the United
States or of a State or foreign country that
prohibits or restricts conduct relating to
narcotic drugs, marijuana,, anabolic steroids, or
depressant or stimulant substances.
21 U.S.C. §-802(44). By analyzing and comparing the text of § 846
conspiracy with the definition of what constitutes a "felony drug
offense" by employing the categorical approach, it will become
crystal clear that § 846 conspiracy is not a generic match for use
with the § 851 enhancement or the career offender enhancement.
Also, to throw salt on the wound, because § 846 conspiracy does not
require an overt act, Shabani, 513 U.S. at 14, the statute thus
criminalizes a broader range of conduct than that covered by
generic conspiracy and the guidelines do not define 'conspiracy'
under §4B1.2, so the term of conspiracy is defined by reference
to. the "generic, comtemporary meaning" of the crime, Taylor, 495
U.S. at 598

but the statute must first pass through the gatekeeper

28

called.the categorical approach to properly apply as a predicate.
This Court was clear where it stated "CuDnder the [categorical]
approach, we look only to the statute of conviction to determine
whether there is a categorical match and

ii i

presume that the

conviction rested upon nothing more than the least of the acts
criminalized' under the statute. lilt Mellouli, 135 S. Ct. at 1986
(quoting Moncrieffe v. Holder, 569 U.S. 184, 190-91 (2013)).
Once the statute of § 846 conspiracy is screened through the
lens of the categorical approach, it will then be determined that
the statute is broader than the generic meaning of conspiracy
and structured in a indivisible formation, thus disqualifying, its
use as a predicate to enhance a sentence.
Under,§4B1.1 of the Guidelines, a defendant is deemed a career
offender if, the person fits the three criteria listed, with the
third criterion pertinent here, which states: (3) the defendant has
at least two prior felony convictions of either a crime of violence
or a controlled substance offense. U.S.S.G. §4Bl.l(a). Beneath
this section are the definitions describing what qualifies as a
crime of violence and controlled substance offense, with the
definition of a controlled substance offense being relevant here,
which is defined as:
an offense under federal or state law, punishable
by imprisonment for a term exceeding one year,
that prohibits the manufacture, import, export,
distribution, or dispensing of a controlled
substance offense (or counterfeit substance) or
the possession of a controlled substance (or
counterfeit substance) with intent to manufacture,
import, export, distribute, or dispense.

29

U.S.S.G. §4B1.2(b). When applying the categorical approach to
compare the elements of § 846 conspiracy to the Guideline definition
of a controlled substance offense, there is an obvious mismatch in
language between the two, and because of the mismatch existing,
the conspiracy statute of § 846 does not qualify as a requisite
prior conviction of a controlled substance offense that is necessary
to apply the career offender enhancement under § 4Bl.l(a).
(b) Connecticut conspiracy of §. 5 3 a - 4.8 (. a ) : can rip t
categorically qualify as a predicate offense to
enhance a sentence under § 851 and §4Bl.l(a).
The Connecticut conspiracy statute does not fare any better
as a predicate to enhance a sentence with § 851 or §4Bl.l(a)

even

though the statute does require the completion of an overt act in
furtherance of the conspiracy by any one of the conspirators. The
Connecticut conspiracy statute reads as follows:
A person is guilty of conspiracy when, with intent
that conduct constituting a crime be performed, he
agrees with one or more person to engage in or
cause the performance of such conduct, and any one
of them commits an over act in pursuance of such
conspiracy.
Connecticut General Statute § 53a-48(a). Petitioner pled guilty
to count 1 of an Information/Complaint in Connecticut for Conspiracy
to Commit Sale of Hallucinogen/Narcotic, attached as Appendix D.
After reading the Connecticut statute of conspiracy, a
determination of guilt requires the "commission" of the overt act
in pursuance of the agreement, but not the elements of the overt
act, which in Petitioner's case, the overt act would be § 21a-277j(a).
Connecticut General 'Statute §' 21a-:269 titled "Burden of proof b-f

30

exception, excuse, proviso or exemption," it describes the necessity
of an overt act, which is emphatically important because in
describing the burden of proof required, it states in pertinent part
that "[i]f it furthers the purpose of the illegal agreement, it makes
no difference that the overt act itself may not be criminal." As
read, it is clear that the conduct associated with the conspiracy
is insignificant because the conduct furthering the conspiracy could
be noncriminal which does not involve elements that are required for
a conviction but only "the facts of the overt act" for a finding of
guilt in Connecticut.
The Government relied on this conviction as a prior to apply
the § 851 prior conviction enhancement and applying the categorical
approach to compare the Connecticut conspiracy statute with the
definition of a 'felony drug offense' according to § 802(44), it
becomes apparent that the prior conviction for conspiracy under
53a-48(a) is a categorical mismatch and prevented from the use as
a predicate to enhance the Petitioner's minimum and maximum penalty
of the sentence. Alleyne v. United States, 133 S. Ct. 2151 (2013);
see also Apprendi

530 U.S. at 490. The elements of 21a-277(a) are

not required for a jury's finding of guilt or admission from a
defendant during a plea hearing, all that is necessary are the
-'facts' or 'actions' of the overt act from § 21a-277(a) for a
conviction of the conspiracy statute in Connecticut, unlike the
federal conspiracy statute of § 846. Shabani, 513 U.S. at 14.
Even assuming that for a conviction ;of conspiracy jin
Connecticut it required the elements of the overt act, this scenario

31

would still suffer the same fate when the categorical approach is
applied. If the 'conduct' necessary of the overt act was required
as elements, the Connecticut drug statute of § 21a-277(a) would be
considered the overt act of 53a-48(a) conspiracy, and because the
drug statute is over broad by encompassing only alternative-ways
of committing a single element and phrased in the conjunctive, this
eliminates this prior conviction from increasing Petitioner's
sentence with any potential enhancement.
Anyone charged in Connecticut with violating § 21a-277(a) can
accomplish the illegal task with conduct such as "offers, gives, or
administers" regardless of the controlled substances regulated by
. the State. When applying the categorical approach and comparing the.
elements of 21a-277(a) with the definition of 'felony drug offense'
r in § 802(44), it is easily seen that there is a clear difference in
- elements and definition, which excludes the application of the
§ 851 sentencing enhancement congruent on a charge of § 841(b)(1)(B).
This same logic also prevents the career offender enhancement from
applying under §4B1.2(b) because the definition of a controlled
substance offense is not a categorical match and without this prior
conviction, Petitioner does not have the required two predicates
necessary for the enhancement.
Another fact that prohibits the use of the § 851 sentencing

----

enhancement and the career offender enhancement under §4Bl.l(a)
is Connecticut defines the word "sale" over broad and states in part
as "any form of delivery, which includes barter, exchange or gift,, or
offer therefor..." Conn. Gen. Stat. § 21a-240(50-);See- also .Savage

32

542 F.3d at 967. The conduct of a

sale' in Connecticut could be

executed in a few different means or ways as defined by the State
and are not elements as required by the categorical approach. This
Court has stated time and time again from Taylor and through out
all its progeny on the demands of the categorical approach when
properly utilized on a statute's comparison of elements that .[.ujnde'r
the categorical approach, the judge looks only to the facts of
conviction and the statutory definition of the prior offense.
United States v. Davis, 204 L.Ed.2d 757, 787 (2019). The categorical
approach in Petitioner's case at bar nullifies the use of the § 851
enhancement and the §4Bl.l(a) career offender enhancement.
(c) The conflict between the circuit courts involve
an important question of statutory construction
concerning Commentary of the United States Sentencing
guidelines.
i

•

Circuit Courts of Appeal have addressed the issue of whether

• § 846 conspiracy or another conspiracy involved crime qualify as a
predicate offense and have reached diverse decisions on the matter,

•V

but all of the circuit courts have made a determination regarding
Commentary Application Note 1 of §4B1.2 being able to include
conspiracy as an offense.
The Fourth and Tenth Circuits

have come to reach similar

conclusions and determined that after applying the categorical
^approach, that because § 846 conspiracy does not- require an overt

----

act, § 846 criminalizes a broader range of conduct than that covered
by generic conspiracy and commentary application note 1 of §4B1.2
does not possess the authorized reach to qualify the word 'conspiring'

33

as a controlled substance offense by simply stating a controlled
substance offense includes the offense of conspiring. See United
States !v. Norman, 935 F.3d 232, 238 (4th Cir. 2019); United States
v. Martinez-Cruz, 836 F.3d 1305, 1314 (10th Cir. 2016).
The District of Columbia and Sixth Circuits have also reached
similar decisions and have ruled that the detailed "definition" of
a controlled substance offense in the Guidelines clearly excludes
inchoate offenses. United States v. Winstead, 890 F.3d 1082, 1091
(D.C. Cir. 2018); United States v. Havis, 927 F.3d 382, 387 (6th
Cir. 2019).
The First, Second, Third, Fifth, Seventh, Eighth, Ninth and
Eleventh Circuits have abandoned the categorical approach altogether
and strictly decided to rely upon commentary application note 1 to
justify applying a prior conviction of a conspiracy involved crime
to enhance a sentence. United States v. Nieves-Borrero, 856 F.3d 5,
9 (1st Cir. 2017); United States v. Jackson, 60 F.3d 128, 133 (-2nd
Cir. 1995); United States v. Marrero, 743 F.3d 389, 398 (3rd Cir.
2012); United States v. Rodriguez-Escareno, 700 F.3d 751, 753-54
(5th Cir. 2012); United States v. Adams, 934 F.3d 720, 729 (7th
Cir. 2019); United States v. Mendoza-Figueroa, 65 F.3d 691, 694
(8th Cir. 1995); United States v. Rivera-Constantino, 798 F.3d 900,
903-04 (9th Cir. 2015); United States v. Lange, 862 F.3d 1290, 1294—
(11th Cir. 2017).
The above listed Circuit Courts of Appeal have concluded that
commentary application note 1 in reference to §4Bl.2(b) of the
guidelines does not conflict with "the Constitution or a federal-

34

v. -

statute, is [not] inconsistent with, or a plainly erroneous reading
of, that guideline,"

and is thus authoritative. Stinson v. United

States, 508 U.S. 36, 38 (1993).
This is a matter that only this Court can resolve because of
the division in the circuit courts on how commentary is to be
interpreted when enhancing a sentence with a prior conviction of a
controlled substance offense involving the crime of "aiding and
abetting, attempting or conspiring."

The present question is

critically necessary for clarification since it involves a heighten
loss of liberty by numerous defendants being sentenced as career
offenders or being enhanced from any other upward variant considered
by the court as referenced in the PSR.
The career offender enhancement, though the guidelines are
only advisory, when applied and a defendant is sentenced as such,
.

»

the defendant is ineligible from discretionary review of a sentence
reduction motion filed pursuant to .§ 3582 (c.) j( 2) .: Any . future guideline
amendments proposed by the Sentencing Commission pursuant to 28
U. S.C. ,§ 994(o) and passed by the Senate Judiciary Committee excludes
a defendant due to a sentence received under §4Bl.l(a).
This grave error committed by the lower courts implicates a
due process concern to a defendant's increased deprivation of liberty
by district and circuit courts alike misconstruing commentary
application note 1 of §4B1.2 as a controlled substance offense and
choosing not.'to apply the categorical approach to determine if a
conpsiracy. crime qualifies as a predicate conviction.

~ ‘

This Court has an obligation ensure Jfhat JLower courts comply

35

with the rule of law when decided in previous opinions of the Court.
The Petitioner's case presents the Court with an opportune time to
rectify this recurring and pressing issue affecting thousands of
prisoners once and for all when statutory interpretation is at’the
root of this problem. Gundy v. United States, 204 L. Ed. 2d 5:22532 (2018);
(d) Sentencing Commission exceeds it's authority
with §4B1.2 Commentary Application Note 1.
This Court has explained the intended purpose of the creation
of the United States Sentencing Comission, the authority delegated
to and retained by the Commission, and the procedures the Commission
must abide by when implementing new policies regarding the
Guidelines.. Mistretta v. United States, 488 U.S. 361 (1989).
Section §4B1.2 is titled definitions and listed under this
section is commentary that states:

l

''Crime of violence" and "controlled substance offense"
include the offenses of aiding and abetting, conspiring,
and attemptingwto commit such offenses.
Commentary Application Note 1. Nowhere in the text of §4B1.2(b)
describing the definition of a controlled substance offense is the
word 'conspiracy' listed and only by reference in application note
1 does commentary try to include conspiring as an addition in the
text of a controlled substance offense, but by referencing the word
conspiring will not suffice. The application notes are interpretations
:__ of, not additions to, the Guidelines themselves; an application note —
has no independent force. Accordingly, the list of qualifying crimes
in application note 1 to §4B1.2 is enforceable only as an
interpretation of the definitions of the term "crime of violence"

36

[and "controlled substance offense"] in the guideline itself. United
States v. Rollins, 836 F.3d 737, 742 (8th Cir. 2016). Section 4B1.2
(b) presents a very detailed "definition" of controlled substance
offense that clearly excludes inchoate offenses. Expressio unius
est exclusio alterius. Indeed, that venerable canon applies doubly
here. Winstead, 890 F.3d at 1091. By purporting to add attempted,
[aiding and abetting, and 'conspiring’] offenses to the clear
textual definition — rather than interpret or explain the ones
already there, commentary in Application Note 1 exceeds it authority
under Stinson.
It is evident that commentary application note 1 is not an
interpretation of a definition but an instruction commanding the
expansion to define a controlled substance offense in § 4B1.2(b) by
creating a-entirely new offense. The Sentencing Commission does not
have the power to add conspiracy offenses to the list of offenses in
§ 4B1.2 through commentary, nor does the text defining a controlled
substance offense ;in the Guidelines mention anything.about the word
'conspiring.

Havis, 927 F.3d at 384 (en banc).

Congress created the Commission as an independent body "charged
[] with the task of establishing] sentencing policies and practices
for the Federal criminal justice system. Stinson, 508 U.S. at 40-41.
The Commission fulfills its purpose by issuing the Guidelines, whichprovide direction to judges about the type and length of sentence
to impose in a given case. Id. at 41; see generally Havis, 927 F.3d
at 385. The Commission thus exercises a sizable piece "of the
ultimate government power, short of capital, punishment" - the powers

37

to take away someone's liberty. Ibid. (citation omitted). The
Commission falls squarely in neither the legislative nor judicial
branch; rather, it is "an unusual hybrid in structure and authority,"
entailing elements of both quasi-legislative and quasi-judicial power.
Mistretta, 488 U.S. at 412. Although the Commission is nomially a
part of the judicial branch, it remains "fully accountable to
Congress," which reviews each guideline before it takes effect. Id.
at 393-94; see also 28 U.S.C. § 994(p). The rulemaking of the
Commission, moreover, "is subject to the notice and comment
requirements of the Administrative Procedure Act." I<3. at 394; see
also 28 U.S.C. § 994(x). These two constraints — congressional review
and notice and comment — stand to safeguard the Commission from
uniting legislative and judicial authority in violation of the
separation of power. Havis, 927 F.3d at 385-86.
Unlike..'the Guidelines themselves, however, commentary to the
Guidelines never passes through the gauntlets of congressional a
review or notice and comment. Id. at 386. This Court does inform us
that because commentary has no independent legal force — it serves
only to interpret the Guidelines

text, not to replace or modify it.

Stinson, 508 U.S. at 44-46. Commentary binds courts only "if the
guideline which the commentary interprets will bear the construction."
Id. at 46. The application note has no independent force [and] the
list of qualifying crimes in application note 1 of §4B1.2 is
enforceable only as an interpretation of the definition of the term
"crime of violence" [and "controlled substance offense"] in the
guideline itself. Rollins

836 F.3d at 742.

38

;

By the Commission making the act of 'conspiracy

a part of

§4B1.2, it did not interpret a term in the guideline itself as no
S'

term in §4B1.2 would bear that construction, but attempted to
circumvent congressional review and the notice and comment
requirements of the Administrative Procedure Act through application
note 1 of commentary by adding an offense covertly and modifying the
language not listed in the guideline. If that were not so, the
institutional constraints that make the Guidelines constitutional in
the first place would hold no weight and lose their intended purpose.
Havis, 927 F. 3d at 386-87. The text of § 4B1.2(b) is definitive in the
matter and dictates what constitutes a controlled substance offense
and what does not. Jurists of reason would see the errors' of bohh the
district and circuit court denying Petitioner relief on his claims
when there are constitutional issues involved and would agree that
the current matter deserves encouragement to proceed further for full
review.
CONCLUSION
Wherefore the above stated reason, the Court should grant the
writ of certiorari.
Respectfully submitted,
s/
Dam ©n Graham#13787-014
FCI Ray Brook
P.0. Box 900
Ray Brook, New York 12977

39

